APPENDIX A
United States v. Guillen-Morales,
No. 20-50749
(5th Cir. Apr. 16, 2021) (per curiam)

Case: 20-50749

Document: 00515824273

Page: 1

Date Filed: 04/16/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
April 16, 2021

No. 20-50749
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Eleno Guillen-Morales,
Defendant—Appellant.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 4:20-CR-217-1
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
Eleno Guillen-Morales pleaded guilty to illegal reentry after removal,
in violation of 8 U.S.C. § 1326. He was sentenced to a 37-month term of
imprisonment, to be followed by a three-year term of supervised release.

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-50749

Document: 00515824273

Page: 2

Date Filed: 04/16/2021

No. 20-50749

Raising one issue on appeal, Guillen-Morales argues that the
recidivism enhancement under § 1326(b) is unconstitutional in light of
Apprendi v. New Jersey, 530 U.S. 466 (2000), and subsequent decisions
because it allows a sentence above the otherwise applicable statutory
maximum based on facts that are neither alleged in the indictment or found
by a jury beyond a reasonable doubt. Guillen-Morales concedes that this
argument is foreclosed by Almendarez-Torres v. United States, 523 U.S. 224,
226-27 (1998), but seeks to preserve the issue for further review. The
Government, agreeing that the issue is foreclosed, has filed an unopposed
motion for summary affirmance. In the alternative, the Government requests
an extension of time to file a brief.
As the Government argues, and Guillen-Morales concedes, the sole
issue raised on appeal is foreclosed by Almendarez-Torres. See United States
v. Wallace, 759 F.3d 486, 497 (5th Cir. 2014); United States v. PinedaArrellano, 492 F.3d 624, 625-26 (5th Cir. 2007). Because the issue is
foreclosed, summary affirmance is appropriate. See Groendyke Transp.,
Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, the Government’s alternative motion for an extension of time
to file a brief is DENIED, and the judgment of the district court is
AFFIRMED.

2

APPENDIX B
United States v. Guillen-Morales,
Indictment,
No. 4:20-CR-00217-DC
(W.D. Tex. Mar. 12, 2020)

Case 4:20-cr-00217-DC Document 8 Filed 03/12/20 Page 1 of 1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
PECOS DIVISION
UNITED STATES OF AMERICA,

1
MAR 122020

CLERK

U.S.

OSTh

CPUTY CLERK

§
§

Plaintiff,

§
§

V.

§

ELENO GUILLEN-MORALES,

COURT

INDICTMENT
[Vio: 8 U.S.C. § 1326 Entry after Deportation]

Defendant.
THE GRAND JURY CHARGES:

COUNT ONE
[8 U.S.C. § 1326]
On or about March 2, 2020, in the Western District of Texas, Defendant,

ELENO GUILLEN-MORALES,
an alien, attempted to enter, entered, and was found in the United States having previously been
denied admission, excluded, deported, and removed therefrom on or about December 21, 2016, and
that the defendant had not received consent to reapply for admission to the United States from the
U.S. Attorney General or the Secretary of the Department of Homeland Security, the successor for

this function pursuant to Title 6, United States Code, Sections 202(3), 202(4), and 557.

A violation of Title 8, United States Code, Section 1326.

ATRUEBTIL.

Oignet signed by the
Jury
forepersOfl of the Grand
FOREPERSON OF THE GRAND JURY

JOHN F. BASH
UNITER STATES ATTORNEY
BY:

GINA GILMORE
Assistant U.S. Attorney

20-50749.15

APPENDIX C
8 U.S.C. § 1326

§ 1326. Reentry of removed aliens, 8 USCA § 1326

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

United States Code Annotated
Title 8. Aliens and Nationality (Refs & Annos)
Chapter 12. Immigration and Nationality (Refs & Annos)
Subchapter II. Immigration
Part VIII. General Penalty Provisions
8 U.S.C.A. § 1326
§ 1326. Reentry of removed aliens
Effective: September 30, 1996
Currentness
(a) In general
Subject to subsection (b), any alien who--

(1) has been denied admission, excluded, deported, or removed or has departed the United States while an order of
exclusion, deportation, or removal is outstanding, and thereafter

(2) enters, attempts to enter, or is at any time found in, the United States, unless (A) prior to his reembarkation at
a place outside the United States or his application for admission from foreign contiguous territory, the Attorney
General has expressly consented to such alien's reapplying for admission; or (B) with respect to an alien previously
denied admission and removed, unless such alien shall establish that he was not required to obtain such advance
consent under this chapter or any prior Act,
shall be fined under Title 18, or imprisoned not more than 2 years, or both.

(b) Criminal penalties for reentry of certain removed aliens
Notwithstanding subsection (a), in the case of any alien described in such subsection--

(1) whose removal was subsequent to a conviction for commission of three or more misdemeanors involving drugs,
crimes against the person, or both, or a felony (other than an aggravated felony), such alien shall be fined under Title
18, imprisoned not more than 10 years, or both;

(2) whose removal was subsequent to a conviction for commission of an aggravated felony, such alien shall be fined
under such title, imprisoned not more than 20 years, or both;

(3) who has been excluded from the United States pursuant to section 1225(c) of this title because the alien was
excludable under section 1182(a)(3)(B) of this title or who has been removed from the United States pursuant to the

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1326. Reentry of removed aliens, 8 USCA § 1326

provisions of subchapter V, and who thereafter, without the permission of the Attorney General, enters the United
States, or attempts to do so, shall be fined under Title 18 and imprisoned for a period of 10 years, which sentence shall
not run concurrently with any other sentence. 1 or

(4) who was removed from the United States pursuant to section 1231(a)(4)(B) of this title who thereafter, without
the permission of the Attorney General, enters, attempts to enter, or is at any time found in, the United States (unless
the Attorney General has expressly consented to such alien's reentry) shall be fined under Title 18, imprisoned for not
more than 10 years, or both.
For the purposes of this subsection, the term “removal” includes any agreement in which an alien stipulates to removal
during (or not during) a criminal trial under either Federal or State law.

(c) Reentry of alien deported prior to completion of term of imprisonment
Any alien deported pursuant to section 1252(h)(2) 2 of this title who enters, attempts to enter, or is at any time found in,
the United States (unless the Attorney General has expressly consented to such alien's reentry) shall be incarcerated for
the remainder of the sentence of imprisonment which was pending at the time of deportation without any reduction for
parole or supervised release. Such alien shall be subject to such other penalties relating to the reentry of deported aliens
as may be available under this section or any other provision of law.

(d) Limitation on collateral attack on underlying deportation order
In a criminal proceeding under this section, an alien may not challenge the validity of the deportation order described
in subsection (a)(1) or subsection (b) unless the alien demonstrates that--

(1) the alien exhausted any administrative remedies that may have been available to seek relief against the order;

(2) the deportation proceedings at which the order was issued improperly deprived the alien of the opportunity for
judicial review; and

(3) the entry of the order was fundamentally unfair.

CREDIT(S)
(June 27, 1952, c. 477, Title II, ch. 8, § 276, 66 Stat. 229; Pub.L. 100-690, Title VII, § 7345(a), Nov. 18, 1988, 102
Stat. 4471; Pub.L. 101-649, Title V, § 543(b)(3), Nov. 29, 1990, 104 Stat. 5059; Pub.L. 103-322, Title XIII, § 130001(b),
Sept. 13, 1994, 108 Stat. 2023; Pub.L. 104-132, Title IV, §§ 401(c), 438(b), 441(a), Apr. 24, 1996, 110 Stat. 1267, 1276,
1279; Pub.L. 104-208, Div. C, Title III, §§ 305(b), 308(d)(4)(J), (e)(1)(K), (14)(A), 324(a), (b), Sept. 30, 1996, 110 Stat.
3009-606, 3009-618 to 3009-620, 3009-629.)

Notes of Decisions (1300)

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 1326. Reentry of removed aliens, 8 USCA § 1326

Footnotes
So in original. The period probably should be a semicolon.
1
So in original. Section 1252 of this title, was amended by Pub.L. 104-208, Div. C, Title III, § 306(a)(2), Sept. 30, 1996, 110
2
Stat. 3009-607, and as so amended, does not contain a subsec. (h); for provisions similar to those formerly contained in section
1252(h)(2) of this title, see 8 U.S.C.A. § 1231(a)(4).

8 U.S.C.A. § 1326, 8 USCA § 1326
Current through P.L. 115-173. Also includes P.L. 115-176 to 115-178. Title 26 current through 115-182.
End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

3

